                                                                           X-GR-FWS-0039-2003

                United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                 Washington, D.C. 20240




                                                                                     April 8, 2003


                             ADVISORY REPORT

Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject:   Final Advisory Report on Costs Claimed by the District of Columbia, Environmental
           Health Administration, Bureau of Environmental Quality, Fisheries and Wildlife
           Division, Under Federal Aid Grants from the U.S. Fish and Wildlife Service from
           October 1, 1996 through September 30, 1998 (No. 2003-E-0021)

                                    Introduction
       This report presents the results of our performance of procedures to review another audit
agency’s work related to costs claimed by the District of Columbia Environmental Health
Administration, Bureau of Environmental Quality, Fisheries and Wildlife Division (Division),
under Federal Aid grants from the U.S. Fish and Wildlife Service (FWS) for the period
October 1, 1996 through September 30, 1998. The Division was under the Department of
Consumer and Regulatory Affairs during fiscal year 1997 but became part of the Environmental
Health Administration, Bureau of Environmental Quality, in fiscal year 1998.

Background and Scope
        The Federal Aid in Sport Fish Restoration Act, as amended (16 U.S.C. 777) (the Act),
authorizes FWS to cooperate with the Mayor of the District of Columbia (District) to provide
Federal Aid grants to the District to enhance its sport fish program. The Act provides that FWS
cannot require the District to pay an amount that will exceed 25 percent of the costs of any
project. Additionally, the Act specifies that fishing license revenues cannot be used for any
purpose other than the administration of the District’s fish and game departments. FWS also
provides grants under the Clean Vessel Act and the Endangered Species Act. The District is not
included in the list of entities eligible for grants under the Federal Aid in Wildlife Restoration
Act, as amended (16 U.S.C. 669).
        Prior to September 2001, another audit agency prepared an undated draft audit report on
its audit of Federal Aid grants awarded by the FWS to the Division for fiscal years 1997 and
1998. The scope of its audit work, as stated in the announcement letter to the Division, was to
evaluate (1) the adequacy of the Division’s accounting system as it relates to the accumulation
and reporting of costs charged to grants; (2) the adequacy of the Division’s purchasing system
and related internal controls as they pertain to FWS Federal Aid grant agreements; (3) the
adequacy and reliability of the Division’s license fees collection and disbursement system; and
(4) the allowability and eligibility of direct costs claimed on grants. The audit was also to
include an evaluation of other issues or systems considered sensitive and/or significant to FWS.
The audit work at the Division covered claims totaling $2.3 million on FWS grants that were
open during the Division’s fiscal years ended September 30, 1997 and 1998 (see the Appendix).
However, the audit agency’s agreement with the FWS expired before the audit agency issued its
draft report, and the Division was not provided with a draft report.

        From 1996 through September 2001, the audit agency conducted audits of Federal Aid
grants under a reimbursable agreement with FWS. The FWS did not renew or extend its
agreement with the audit agency, which expired September 30, 2001. At the time of expiration,
final audit reports on several uncompleted audits had not been issued and the audits were in
various stages of the audit and reporting processes. The audit agency indicated in a September
26, 2001 memorandum that its supervisors had not reviewed the working papers for the audit of
the District to ensure that (1) sufficient, competent and relevant evidence was obtained, (2)
evidential matter contained in the working papers adequately supported the audit findings, and
(3) sound auditing techniques and judgment were used throughout the audit.

         On September 20, 2001, FWS and the Department of the Interior (DOI) Office of
Inspector General (OIG) entered into an Intra-Departmental Agreement under which FWS
requested the OIG to (1) review the audit work performed by the audit agency, including its
working papers, summaries and draft reports for these audits and (2) issue reports on the findings
that were supported by the working papers. Accordingly, our review was limited to performing
the procedures set forth in the Agreement and our conclusions presented in the report are limited
to the findings substantiated in the working papers. We did not perform any additional audit
work of the Division’s records, and the limited work performed under these procedures does not
constitute an audit by the OIG in accordance with Generally Accepted Government Auditing
Standards.

                                     Results of Review
        The working papers demonstrated that the Division’s accounting system and related
internal controls in effect during fiscal years 1997 and 1998 were adequate for the accumulation
and reporting of costs under Federal Aid grants. The working papers also concluded that the
Division’s other systems and related internal controls in effect during the audit period related to
purchasing, the distribution of labor costs, grant compliance, and certification of the accuracy of
the number of fishing licenses were adequate for Federal Aid participation. In addition, the
working papers identified $559,334 of questioned costs and commented on the need for a
revision to the District’s assent legislation to include a provision that prohibits the diversion of
license revenues.

                                                  2
A. Questioned Costs
        Of the $2,324,460 claimed by the Division for fiscal years 1997 and 1998, the working
papers identified questioned costs of $559,334 applicable to (1) indirect costs,  (2) matching
contributions, and (3) unidentified costs.

         1. Indirect Costs. The Federal Aid in Sport Fish Restoration Act (Act), 16 U.S.C. 777 §
6(c), requires that “Administrative costs in the form of overhead or indirect costs for services
provided by State central service activities outside of the State fish and game department charged
against programs or projects supported by funds made available under this Act shall not exceed
in any one fiscal year 3 per centum of the annual apportionment to the state.” The working
papers showed that the Division did not consider the 3% central services limitation in developing
its indirect cost (overhead) rates. However, the working papers did not include sufficient
information to allow us to determine whether the amounts included in the rates for central
service activities exceeded the 3 percent limitation. Accordingly, we classified the entire
amounts claimed for indirect costs for fiscal year 1997 ($157,416) and 1998 ($143,744) as
unsupported, as follows:

                                                Grant          Unsupported
                        Fiscal Year            Number             Costs
                            1997               F-1-C-12              $45,022
                            1997               F-2-R-12               81,705
                            1997               F-4-E-11               30,689
                                                 Total              $157,416


                            1998               F-1-C-13              $19,698
                            1998               F-2-R-13               81,710
                            1998               F-4-E-12               42,336
                                                 Total              $143,744

       2. Matching Contributions. Costs of $231,633 claimed as matching contributions were
questioned because the Division could not provide adequate documentation to support the
amounts claimed, as follows:

                                       Grant          Unsupported
                                      Number             Costs
                                      F-2-R-13           $114,699
                                      F-2-R-12             77,662
                                      F-1-C-13             39,272
                                       Total             $231,633


                                                  3
       3. Unidentified Direct Costs. Costs of $26,541 claimed by the Division were
questioned because the Division did not provide supporting documentation for those costs.
Specifically:

   •   The working papers listed the following selected transactions as unsupported because
       requested source documents were not provided. Accordingly, we classified the $22,527
       as unsupported costs.


        Grant Number         Date      Transaction ID           Source Code       Amount
        F-2-R-13           2/01/98     JECACRSJ9802                 FS-98         $10,528
        F-2-R-13           2/01/98     JECACRSJ9802                 FS-98           2,565
        F-2-R-13           9/01/98     JEGEBFG84803                 FS-98           2,100
           Subtotal                                                               $15,193

        F-1-C-13           2/01/98     JECACRSJ9802                FM-98           $5,384
        F-1-C-13           5/01/98     VOCECRG98230                FM-98              750
        F-1-C-13           9/01/98     JEGEBFG84803                FM-98            1,200
            Subtotal                                                               $7,334
             Total                                                                $22,527

   •   The draft report in the working papers stated that for Grant F-4-E-11, “The grantee
       claimed $12,659 in non-personnel cost. Based on our analysis of the grantee’s
       accounting records we verified only $8,645 in non-personnel expenditures which
       includes $2,100 paid with license revenues (code 2484). The grantee has not provided an
       explanation for the variance in amounts. We classify and questioned this cost [$4,014] as
       unsupported.”

Recommendation

       We recommend that FWS:

         1. Require the Division to determine whether its indirect cost rates for fiscal years 1997
and 1998 are in compliance with the 3 percent limitation on central service costs, recompute the
rates if necessary, and reimburse FWS for any overcharges for indirect costs.

       2. Resolve the $231,633 of unsupported matching contributions.

       3. Resolve the $26,541 of unidentified and unsupported direct costs.




                                                 4
B. Assent Legislation
        Our review of the working papers showed that the Division’s current assent legislation
states “Revenues from a licensing regulatory scheme under this section shall be used only for
protecting and managing aquatic life.” The assent legislation does not, however, specifically
include a prohibition against the diversion of license revenues paid by sport fishermen to
purposes other than the administration of the Fisheries and Wildlife Division. This prohibition is
required by the Code of Federal Regulations (50 CFR 80.3).

Recommendation

        We recommend that FWS require that the District’s legislation be amended to include the
specific prohibition required by the regulations (50 CFR 80.3).

        At the closeout conference held on November 7, 2002, officials of the Fisheries and
Wildlife Division (1) requested additional information to assist them in resolving the
unsupported costs with FWS, and (2) concurred with the assent legislation finding and
recommendation. However, the Division did not provide a written response to the draft
report, which was due on January 30, 2003. Accordingly, all of the recommendations are
considered unresolved.

        In accordance with the Departmental Manual (360 DM 5.3), please provide us with your
written comments regarding the unresolved recommendations by July 11, 2003. If you have any
questions regarding this report, please contact Mr. Gary W. Dail, Federal Assistance Audit
Coordinator, at (703) 487-8011.

cc: Regional Director, Region 5
      U.S. Fish and Wildlife Service




                                                5
                                                                                    APPENDIX


                  DISTRICT OF COLUMBIA
         ENVIRONMENTAL HEALTH ADMINISTRATION
             FISHERIES AND WILDLIFE DIVISION
      SCHEDULE OF GRANT COSTS AND QUESTIONED COSTS
              FOR FISCAL YEARS 1997 AND 1998

                  GRANT          AMOUNT           QUESTIONED
   GRANT         AMOUNT          CLAIMED            COSTS             BALANCE NOTES
 F-1-C-12         $326,826        $231,138           $45,022            $186,116         1
 F-1-C-13          326,196         157,090             66,304              90,786        2
 F-2-R-12          498,815         491,954           159,367              332,587        3
 F-2-R-13          525,543         458,795           211,602              247,193        4
 F-4-E-11          249,036         139,948             34,703             105,245        5
 F-4-E-12          303,399         245,535             42,336             203,199        6
 F-6-D-6             60,000               0                 0                   0
 F-6-D-7             60,000               0                 0                   0
 F-9-D-2             22,000               0                 0                   0
 F-10-D-1          800,000         600,000                  0             600,000
 V-1-1             320,000                0                 0                   0
 V-2-1               91,734               0                 0                   0
    TOTAL       $3,583,549      $2,324,460          $559,334           $1,765,126

Notes:

1. Questioned costs of $45,022 are for unsupported indirect costs (Questioned Costs, 1).

2. These questioned costs include $19,698 for unsupported indirect costs; $39,272 for
   unsupported matching contributions; and $7,334 for unidentified direct costs (Questioned
   Costs, 1, 2, and 3, respectively).

3. These questioned costs include $81,705 for unsupported indirect costs and $77,662 for
   unsupported matching contributions (Questioned Costs, 1 and 2, respectively).

4. These questioned costs include $81,710 for unsupported indirect costs; $114,699 for
   unsupported matching contributions; and $15,193 for unidentified direct costs (Questioned
   Costs, 1, 2, and 3, respectively).

5. These questioned costs include $30,689 for unsupported indirect costs and $4,014 of
   unexplained non-personnel costs. (Questioned Costs, 1 and 3, respectively).

6. Questioned costs of $42,336 are for unsupported indirect costs (Questioned Costs, 1).


                                              6
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free              800-424-5081
                             Washington Metro Area          202-208-5300
                             Hearing Impaired (TTY)         202-208-2420
                             Fax                            202-208-6081
                             Caribbean Region               340-774-8300
                             Northern Pacific Region        671-647-6051
              Internet:      www.oig.doi.gov/hotline_form.html




                            U.S. Department of the Interior
                              Office of Inspector General
                                  1849 C Street, NW
                                Washington, DC 20240
                                        www.doi.gov
                                       www.oig.doi.gov
